—-
mum §=HARTZOG CONGER CASON

June 1, 2020
VIA E-FILING

Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, N.E.

Washington, DC 20543

Re: Rogers County Board of Tax Roll Corrections, Kathy Pinkerton Baker
and Scott Marsh v. Video Gaming Technologies, Inc., Case No. 19-1298

Dear Mr. Harris:

I am counsel of record for Respondent, Video Gaming Technologies, Inc. The
Petition for Writ of Certiorari in this case was filed on May 14, 2020, and a response
is due by June 18, 2020. Due to the significant disruptions of the COVID-19
pandemic, and pursuant to Rule 30.4 of the rules of the Supreme Court and the
Court’s March 19, 2020 and April 15, 2020 Orders, Respondent respectfully requests
an extension of time to and including July 20, 2020, to file its response to the Petition.
Matthew Free, counsel of record for Petitioners, has consented via email to this
request.

Sincerely,

HARTZOG CONGER CASON

Yaw \n-
Kurt M. Wine

Counsel of Record for Respondent
KMR:/tc

cc: Matthew Free
Counsel of Record for Petitioners
(via e-filing and email)

201 Robert S. Kerr Avenue, Suite 1600, Oklahoma City, OK 73102
P: 405.235.7000 | f 405.996.3403 | hartzoglaw.com
